1909 K Street NW, Suite 900
Washington, D.C. 20006-1152

v

202.467.8800 | www.vorys.com

Vorys, Sater, Seymour and Pease LLP

Founded 1909

Legal Counsel

Pamela A. Bresnahan
Direct Dial (202) 467-8861
Direct Fax (202) 533-9020
Email pabresnahan@vorys.com

May 27, 2020
VIA ELECTRONIC FILING
Honorable Scott S. Harris, Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

U.S. Supreme Court No. 19-1262
Steven E. Greer, M.D., Petitioner v. Dennis Mehiel, Robert Serpico, The
Battery Park City Authority, Respondents
Application for Extension of Time to File Brief in Response to Petition
for Writ of Certiorari

Dear Mr. Harris:
Pursuant to Rule 30.4 of the Rules of the United States Supreme Court, Respondents
Dennis Mehiel and Robert Serpico respectfully request a thirty (30) day extension of time to and
including July 1, 2020 to file a brief in response to the petition for writ of certiorari (the
“Petition”) filed by Petitioner Steven E. Greer, M.D.
The Petition was filed on April 27, 2020 and docketed on April 30, 2020. The deadline
for Respondents to file a response to the Petition is currently June 1, 2020. Additional time is
needed because undersigned counsel was only recently retained. A thirty-day extension will
allow Respondents the time needed to complete the response to the Petition. This brief delay
will not prejudice any party.

Columbus | Washington | Cleveland | Cincinnati | Akron | Houston | Pittsburgh

v
Legal Counsel

Honorable Scott S. Harris, Clerk of the Court
May 27, 2020
Page 2
Therefore, Respondents Dennis Mehiel and Robert Serpico respectfully request that the
deadline to file an opposition to the Petition be extended thirty (30) days to and including July 1,
2020.
Thank you for your consideration of this request.
Respectfully submitted,
VORYS, SATER, SEYMOUR AND PEASE LLP

Pamela A. Bresnahan
1909 K Street, N.W.
Ninth Floor
Washington, DC 20006
Tel: 202-467-8861
pabresnahan@vorys.com
Attorney for Respondents The Battery Park City
Authority, Dennis Mehiel and Robert Serpico
cc:

Steven E. Greer, M.D.
7029 Maidstone Drive
Port Saint Lucie, FL 34986
E-mail: SG@GreerJournal.com
Petitioner, Pro Se

